IN THE
SUPREME COURT OF THE UNITED STATES
NO. _________________
CHRISTOPHER AUNDRE FAULKNER,
also known as Christopher A. Faulkner,
Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
PROOF OF SERVICE
I, Kevin B. Ross, do certify that on this date, September 14, 2020 pursuant to Supreme Court
Rules 29.3 and 29.4, I have served the attached MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding, or that party's counsel, and on every other person required to be served. I have served
the Clerk of the Supreme Court of the United States by United States mail, certified, return receipt
requested; the Solicitor General, Leigha Simonton, and Petitioner have been served by depositing an
envelope containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

Christopher A. Faulkner
Reg. #76501-112
Limestone County Detention Center
910 North Tyus Street
Groesbeck, TX 76642

Leigha Simonton and Gail Hayworth
Asst. United States Attorneys
1100 Commerce, 3rd Floor
Dallas, TX 75242

/s/Kevin B. Ross
Kevin B. Ross

